No. 20-444
IN THE

Supreme Court of the United States
_________
UNITED STATES OF AMERICA,
Petitioner,
v.
MICHAEL ANDREW GARY,
Respondent.
CERTIFICATE OF SERVICE
I, David Bitkower, hereby certify that I am a member of the Bar of this Court,
and that I have this 25th day of March 2021, caused three copies of the Brief of National
Association of Criminal Defense Lawyers as Amicus Curiae in Support of Respondent
to be served via overnight mail and an electronic version of the document to be
transmitted via the Court’s electronic filing system to:
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Jeffrey L. Fisher
Stanford Law School Supreme Court
Litigation Clinic
559 Nathan Abbott Way
Stanford, CA 94305-8610
(650) 724-7081
jlfisher@law.stanford.edu

Counsel for United States

Counsel for Michael Andrew Gary

/s/ David Bitkower
David Bitkower

